No.

IN THE SUPREME COURT OF THE UNITED STATES

THOMAS CHRISTOPHER RETZLAFF
Petitioner,

JASON LEE VAN DYKE
CERTIFICATE OF SERVICE

Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Daniel R. Ortiz, a
member of the Bar of this Court and counsel for Petitioner, certify that on May 4,
2020, three copies of this petition for certiorari were served by third-party commercial
carrier for delivery within 3 calendar days on respondent:

Jason Lee Van Dyke
108 Durango Drive
Crossroads, TX 76227

(469) 964-5346
jasonleevandyke@gmail.com

I further certify that all parties required to be served have been served.

Naat. x
Daniel R. Ortiz

Dated: May 4, 2020
